WAIVER

Supreme Court of the United States

No. 19-980
Ariana M. v. Humana Health Plan of Texas, Inc.
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
KA Please enter my appearance as Counsel of Record for all respondents.

Q There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

% am a member of the Bar of the Supreme Court of the United States.

© Tam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by ember.

Signature
Date: SI | | Coz

(Type or print) cs bee SOTERA

Mr. DMs. O Mrs. OMiss

rin Soutero Sapine Mugeew PULC

Address 1320 _N Mo Pac Gey Ste 30%

City & State Aust TX rip 1813 (_
Phone 912-422-1959 _

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

 

 

ce EUZORETA Hore s ANGR RENT
LISA pe eatetoaeg ne BERG PLUMMER.
KANTOR 9 KONT Lovinsen> i RAWAL
11834 NeeDHeer ST 3T00 Saeee Sreemway re Se
NoeTHEIDGe CA 11524 Hosted 7K 17048

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov, Have the Supreme Court docket number available.
